<html>
<title> - NATIVE AMERICAN PROGRAMS ACT</title>
<body><pre>[Senate Hearing 108-594]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-594

                      NATIVE AMERICAN PROGRAMS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2436

        TO REAUTHORIZE THE NATIVE AMERICAN PROGRAMS ACT OF 1974

                               __________

                              JUNE 8, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
94-171                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 2436, text of.................................................     2
Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............     4
    Echohawk, John, executive director, Native American Rights 
      Fund.......................................................     8
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Smith, Jr., Leonard J., president and chief executive 
      officer, A&S Tribal Industries.............................    10
    Stamps, Quanah Crossland, commissioner, Administration for 
      Native Americans, Department of Health and Human Services..     4

                                Appendix

Prepared statements:
    Clahchischilliage, Sharon, member, Navajo Nation.............    15
    Echohawk, John...............................................    16
    Laenui, Poka, executive director, Wai`anae Coast Community 
      Alternative Development Corporation........................    17
    Smith, Jr., Leonard J........................................    18
    Stamps, Quanah Crossland.....................................    19

 
                      NATIVE AMERICAN PROGRAMS ACT

                              ----------                              


                         TUESDAY, JUNE 8, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 485, Russell Senate Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senators Inouye and Akaka.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The committee meets this morning to receive 
testimony on S. 2436, a bill to reauthorize the Native American 
Programs Act. The Native American Programs Act was enacted in 
law in 1974 as part of President Johnson's war on poverty 
initiative. The act is administered by the Administration for 
Native Americans within the Department of Health and Human 
Services.
    The Administration for Native Americans provides grants to 
first, assist Native communities in social and economic 
development initiatives; second, build the capacity of Native 
communities to plan and develop environmental programs; and 
third, provide support to Native communities that are seeking 
to preserve the Native languages.
    For many tribal groups, ANA funding is one of the few 
sources of support that may be used to develop the necessary 
genealogical, anthropological and historical data necessary to 
document their petitions for Federal acknowledgment. There can 
be no doubt that the Native American Programs Act has enabled 
some of the most important and critical objectives in Indian 
country to be achieved.
    [Text of S. 2436 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. Many of our witnesses today have submitted 
written testimony to the committee because they lack the 
resources to travel to Washington. We are most appreciative of 
that fact, and their input.
    So without further ado, I will call our first witness, 
Quannah Crossland Stamps, the commissioner for the 
Administration for Native Americans.
    Before we proceed Ms. Stamps, does Senator Akaka have a 
statement?

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I thank 
you and the committee for holding this hearing today on S. 
2436, a bill to reauthorize the Native American Programs Act. I 
would also like to thank the witnesses who will testify before 
the committee for their participation today.
    The Administration for Native Americans which administers 
the Native American Programs Act serves all Native Americans, 
including 562 federally recognized tribes, American Indian and 
Alaska Native organizations, Native Hawaiian organizations and 
Native populations throughout the Pacific Basin. ANA has 
successfully assisted American Indians, Alaska Natives, Native 
Hawaiians and other Native American Pacific Islanders in 
promoting social and economic self-sufficiency. ANA has helped 
these communities in generating their own resources to become 
self-sufficient.
    As we will hear from the witnesses today, Native 
communities across the Nation, including the Native peoples in 
Hawaii, have benefitted by these worthy programs. It is 
imperative that we reauthorize the Native American Programs Act 
in order to continue improving economic conditions of 
indigenous people. I want to particularly thank Senator Inouye 
for introducing this important legislation again, and to 
continue it after 30 years of its existence. Again, thank you 
very much, Mr. Chairman, for giving me this opportunity and for 
this hearing. Thank you.
    Senator Inouye. I thank you, sir.
    May I now call upon Commissioner Stamps. Commissioner, 
welcome.

      STATEMENT OF QUANAH CROSSLAND STAMPS, COMMISSIONER, 
 ADMINISTRATION FOR NATIVE AMERICANS, DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Ms. Stamps. Good morning, Mr. Chairman, Senator Akaka. It 
is certainly an honor to appear before you today to discuss 
reauthorization of the Native American Programs Act is also 
known as NAPA. The purpose of NAPA is to promote the social and 
economic self-sufficiency of American Indians, Native 
Hawaiians, Alaska Natives and other Native American Pacific 
Islanders. Each of these culturally diverse populations have 
their own traditions, languages and social and economic 
challenges.
    NAPA also authorizes the Intradepartmental Council on 
Native American Affairs, the Department of Health and Human 
Services' focal point for the policies and programs that impact 
Native American people and their communities. The 
Administration for Native Americans implements and administers 
NAPA. As Commissioner of ANA, I oversee a $45 million 
discretionary grant program that provides funding in three 
areas: Social and economic development, environmental 
regulatory enhancement; and language preservation and 
maintenance.
    ANA currently administers a portfolio of 250 projects, with 
63 percent of these projects as social and economic development 
projects; 10 percent are environmental projects; and 27 percent 
are language preservation and maintenance.
    ANA receives over 560 applications annually requesting over 
$100 million in project funding. It is ANA's goal to fund as 
many quality projects as possible and to work with our grantees 
and communities to ensure the success of each project.
    The ANA SEDS Program promotes self-sufficiency and enhances 
self-governance by providing seed money for projects that are 
community-designed and implemented. These projects provide 
options and opportunities to support and develop stable 
communities. For example, the ANA has funded the Affiliated 
Tribes of the Pacific Northwest to develop travel and tourism 
brochures, videotapes, and marketing material to increase their 
tourism revenue. The Standing Rock Sioux Tribe in North Dakota 
is developing business and financial plans that will enable 
them to purchase and operate their own telephone company. The 
Native American Sports Council in Colorado has trained over 
1,500 Native American young athletes and coaches by using 
traditional Native American values, combined with athletic 
excellence and wellness programs. In Alaska, Port Graham is 
laying the foundation for development of a value-added fish 
processing operation that will allow them to diversify their 
commercial business markets.
    With the growing awareness of environmental issues, ANA's 
Environmental Regulatory Enhancement Projects address the 
responsibility of tribes and villages to formulate the 
environmental ordinances and laws, and train their community 
members in the use and control of their natural resources. For 
example, the Great Lakes Fish and Wildlife Commission based in 
Wisconsin used ANA funds to leverage over $2 million in an 
effort to prevent the spread of a new invasive marine species 
to the Great Lakes. Another example is the Hoopa Valley Indian 
Reservation in California that made their community members 
safer and protected their timber industry through the 
development and implementation of a comprehensive black bear 
management plan.
    Through the language preservation and maintenance programs, 
ANA has funded projects that address the need to stop the loss 
of our Native languages. Many tribes and Native communities 
have language preservation programs. For example, the Cherokee 
Nation in Oklahoma has developed and successfully implemented 
school-based language immersion programs and after-school 
programs to support language fluency. Another successful ANA 
grantee is the Alu Like in Hawaii. This organization has 
digitized and translated the original Hawaiian bible and 
historical documents and newspapers, and made the resources 
available both on an interactive Web site and on CD ROM.
    In all of these projects, ANA funds have been used to build 
community capacity and to support our people, our traditions, 
and to develop our community infrastructure.
    When I became Commissioner of ANA, I conducted a review of 
the ANA program. Based on that review, we developed an 
organizational action plan to make an already-great program 
more streamlined, more cost-effective and more accessible to 
our Native communities. ANA has also restructured how it 
provides technical assistance services to prospective 
applicants and current grantees.
    Mr. Chairman, Senator Akaka, I have already submitted my 
statement regarding these improvements, so I will not go into 
it at this time during the hearing.
    ANA funds the widest range of community-based projects 
submitted by tribes and Native organizations, projects that 
make a difference in the lives of our Native children, elders 
and families. Together with the support of Congress and the 
reauthorization of the Native American Programs Act, ANA will 
continue to provide critical funding and technical assistance 
for communities to achieve their goals of self-sufficiency.
    Thank you, Mr. Chairman and members of the committee. I 
will take any questions.
    [Prepared statement of Ms. Stamps appears in appendix.]
    Senator Inouye. I thank you very much. If the NAPA program 
did not exist and were not reauthorized, what resources would 
be available for preserving Native languages?
    Ms. Stamps. I am not aware of any resources other than NAPA 
for Native languages, except for possibly the Department of 
Education, but I am not sure if they fund in a discretionary 
manner Native language programs.
    Senator Inouye. What sources do you think would be 
available for tribal governments to regulate environmental 
policy?
    Ms. Stamps. Other than programs that are available from 
BIA, I do not believe that there is any discretionary funding 
available to help tribes implement or develop laws and 
ordinances.
    Senator Inouye. Can you advise this committee as to how 
many tribes have benefitted from the act before 1998?
    Ms. Stamps. Before 1998? How many tribes have benefitted 
from NAPA?
    Senator Inouye. Yes.
    Ms. Stamps. I am sorry. I do not have that information. I 
will be happy to provide it to the committee.
    Senator Inouye. Do you have any information after 1998?
    Ms. Stamps. We know that ANA's portfolio is made up of 
about 70 percent tribal-funded projects; 30 percent are 
nonprofit.
    Senator Inouye. Would you consider this program to be a 
successful one?
    Ms. Stamps. Absolutely.
    Senator Inouye. So you would be in favor of 
reauthorization?
    Ms. Stamps. I would.
    Senator Inouye. We have been advised that your agency has 
set a cap for individual grants and reduced that cap from $1 
million to $500,000. Can you explain the rationale for this?
    Ms. Stamps. Yes, Senator; one of the things that we looked 
at when we reviewed the program was to determine how many 
grants ANA awards and how many communities the grants affect. 
We had approximately four or five grantees that encumbered 
about 20 percent of ANA's new grant award dollars per year. So 
what we did is we wanted to put more grants in the communities 
and ensure that we were able to put more money in the 
communities.
    So reducing the cap from $1 million to $500,000 really did 
not affect current grantees, except what it did do is put more 
money out in the communities. We did have a program 
announcement that went out for comment informing the public 
that we were interested in doing this. We did not receive any 
comments or complaints at the agency regarding this change.
    Senator Inouye. What is the rationale for imposing a 
condition that the project must be completed within 3 years?
    Ms. Stamps. That has been a historical policy for ANA, an 
administrative policy. They actually have three issues that 
they address when they fund a project; that the project can be 
complete; that there is a product at the end; or that the 
project is self-sufficient at the end of a 3-year period.
    Senator Inouye. The Intradepartmental Council on Indian 
Affairs has been, I suppose, an effective tool to raise 
awareness of Native American issues. Do you think that this 
Council should be continued under this reauthorization?
    Ms. Stamps. Absolutely. Secretary Thompson and Deputy 
Secretary Allen are extremely supportive of this Council. It is 
comprised of the major heads of all the agencies in HHS.
    Senator Inouye. So you believe that this measure continues 
to serve its purpose?
    Ms. Stamps. It does serve a purpose.
    Senator Inouye. I thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Commissioner, I want to start by thanking you and 
commending you for the work you have done, and especially for 
the kind of support ANA gives to the indigenous peoples. There 
is no question that it has helped these folks in these three 
primary programs that you have mentioned. So therefore, I want 
to commend you and wish you well in what you are doing.
    I hope that we will continue to see this kind of movement 
in the indigenous communities. I am so glad that you are 
putting emphasis on language as you are. It is something that 
is basic, as you know, to the indigenous peoples. So I hope the 
preservation and maintenance programs of languages will 
continue as strong as they have. It certainly helps the culture 
and the continued education of young people in the culture. I 
am so glad to hear it all over Hawaii, and I am sure across the 
Nation.
    So thank you very much.
    Thank you, Mr. Chairman.
    Ms. Stamps. Thank you.
    Senator Inouye. Thank you very much, Madam Commissioner.
    Ms. Stamps. Thank you, Senator.
    Senator Inouye. Now may I call upon the second panel, John 
Echohawk, the executive director of the Native American Rights 
Fund of Boulder, CO; and Leonard J. Smith, Jr., president and 
CEO, A&S Tribal Industries of Poplar, Montana.
    Mr. Echohawk.

STATEMENT OF JOHN ECHOHAWK, EXECUTIVE DIRECTOR, NATIVE AMERICAN 
                          RIGHTS FUND

    Mr. Echohawk. Good morning, Mr. Chairman. Thank you for 
inviting me here today to discuss S. 2436, a bill to 
reauthorize the Native American Programs Act of 1974. The Act 
is administered by the Administration for Native Americans, 
ANA, in the Department of Health and Human Services.
    Both the Native American Rights Fund and I have a long 
association with ANA. I went to law school on a scholarship 
program started in 1967 by ANA's predecessor agency, the Indian 
Division of the Office of Economic Opportunity. The purpose of 
that pilot program was to increase the number of Native 
American attorneys in this country. At that time, there were 
only a handful and we should have had about 1,000 to be 
proportionally represented in the legal profession. The pilot 
program was later picked up by other government agencies and 
private scholarship providers, and has helped to produce over 
2,000 Native American attorneys today.
    I think that you and all of the other committee members are 
aware of the important role that Native American attorneys have 
played in helping the tribes improve their social and economic 
conditions substantially during this Indian self-determination 
period. This is the kind of social and economic development 
that ANA has done in the past and will continue to do in the 
future in Indian country.
    The Native American Rights Fund, a nonprofit national 
Native American legal organization, has been receiving funding 
from ANA and its predecessor agencies almost continuously since 
1971 to assist tribes, Native American organizations, and 
individuals in removing and resolving legal barriers to social 
and economic development.
    In recent years, with ANA support, the Native American 
Rights Fund assisted the Chippewa-Cree Tribe of the Rocky Boy's 
Reservation in Montana in negotiating a water rights settlement 
compact with the State of Montana that was approved by Congress 
and provided $47 million to the tribe to provide for its 
present and future water needs.
    With ANA support, the Native American Rights Fund assisted 
the Alabama-Coushatta Tribe of Texas in securing a 
recommendation from the U.S. Court of Federal Claims that 
Congress should provide over $270 million in compensation to 
the tribe for the failure of the United States to protect the 
tribe's aboriginal lands. In Alaska, the Native American Rights 
Fund provided assistance to Alaska Natives in protecting their 
subsistence hunting and fishing rights, which were upheld in 
court decisions and which provide an annual harvest of 34 to 40 
million pounds of game and fish to over 200 Native villages.
    These are just a few recent examples of the social and 
economic development projects that the Native American Rights 
Fund has done with ANA support.
    I am therefore very supportive of this bill to reauthorize 
the Native American Programs Act of 1974 and keep the ANA 
program going to provide financial assistance to Native 
Americans for social and economic development, environmental 
protection, and language revitalization. As an executive 
director of a Native American nonprofit organization, I know 
how difficult it is to raise funds for Native American social 
and economic development projects from the public and private 
sectors. I know that ANA has the largest amount of funds and 
the greatest flexibility in supporting Native American social 
and economic development projects anywhere.
    Despite ANA's long history of supporting these projects, 
there is still a significant unmet need for funding for Native 
American social and economic development projects, as evidenced 
by the huge volume of grant applications that ANA still 
receives annually. The Native American Programs Act of 1974 
needs to be authorized so that ANA can continue its important 
role in trying to meet this unmet need and promote Native 
American social and economic development across the country.
    ANA's primary grant program for meeting these social and 
economic development needs is their Social and Economic 
Development Strategies, or SEDS, Program. I was pleased to be 
part of a work group put together by ANA back in the 1970's 
that helped to formulate this SEDS Program. The key element of 
the SEDS Program was the self-determination policy, which 
recognizes the right and the responsibility of each tribe and 
Native American community to create its own strategy for social 
and economic development. The flexibility built into the SEDS 
program to allow consideration of these tribal and community-
based strategies for funding has allowed ANA to achieve the 
success that it has in promoting social and economic 
development projects in Indian country.
    Unfortunately, I believe that this flexibility in the ANA 
SEDS program was compromised when ANA released its 2004 program 
announcement late last year, which it finalized earlier this 
year. I shared my concerns about the new program announcement 
with ANA Commissioner Quanah Stamps, but unfortunately they 
were not addressed in the final program announcement. My first 
concern was that the upper limit on grant awards was reduced 
from $1 million per year, which is about what the Native 
American Rights Fund has been receiving in grants in recent 
years, to $500,000. That is a reduction of $500,000. My other 
concern was the new restriction against funding any project 
that had been funded in whole or in part before, which 
basically means that ANA's funding is now limited to projects 
that can be completed in 3 years or less. In past years, ANA 
would fund Native American projects in parts so that a project 
requiring more than 3 years to complete could be funded and 
eventually completed.
    Now, we are required to propose SEDS projects that take 3 
years or less and we do not have very many of those to propose 
on behalf of the tribes and Native American communities that we 
serve. These two changes mean that ANA has gone to a SEDS 
Program that limits the flexibility of tribes and Native 
American communities and requires smaller grants and smaller 
projects. These two changes have impacted the Native American 
Rights Fund severely and I hope that ANA will reconsider these 
concepts in the future in their new SEDS Program announcements.
    Thank you, Mr. Chairman. I would be pleased to answer any 
questions that you may have.
    [Prepared statement of Mr. Echohawk appears in appendix.]
    Senator Inouye. I thank you, sir. I will call upon Mr. 
Smith before I ask questions.
    So, President Smith.

    STATEMENT OF LEONARD J. SMITH, Jr., PRESIDENT AND CEO, 
              ASSINIBOINE-SIOUX TRIBAL INDUSTRIES

    Mr. Smith. Mr. Chairman and members of the committee, I 
appreciate the opportunity to testify on behalf of the Native 
American Programs Act of 1974, referred to in my testimony as 
NAPA.
    My name is Leonard J. Smith and I am an enrolled member of 
the Assiniboine-Sioux Tribes on the Fort Peck Indian 
Reservation in Northeastern Montana. I am also Chief Executive 
Officer of A&S Tribal Industries, a tribal-owned, four-acre 
industrial complex of 180,000 square-feet of space that 
provides metal fabrication and machining manufacturing services 
to the Federal Government and to the private sector.
    A&S Tribal Industries, once the largest private sector 
employer in Northeastern Montana, with 550 employees and 
approximately $40 million in revenue, is currently diversifying 
into new market opportunities with the assistance of NAPA. NAPA 
is the only program in the Federal Government that provides 
seed-funding for a large and diverse constituency of over 550 
Federally recognized tribes, Alaska Natives and Natives of the 
Pacific Islands. It helps leverage local funds and non-Federal 
funds to finance business projects at the community level.
    The results are increased self-sufficiency, job creation 
and job retention on American Indian reservations. Programs 
such as NAPA have a strong impact on the ability of tribal and 
Native-owned companies to develop laws and regulations that 
comply with Federal agency standards, as well as with business 
practices required by private industry. My testimony focuses on 
project funding and technical assistance provided by the 
Administration for Native Americans. Investments we have 
received from ANA have helped A&S Tribal Industries increase 
private sector contracts for commercial product lines.
    As chief executive office of a tribal-owned enterprise, I 
understand and incorporate the distinct competitive advantages 
that tribes have for creating jobs on reservations and in 
Native American communities. But we need the Federal partners 
like NAPA to help with the successful transition of tribal-
owned companies into the global economy. In our case, 
technology plays an important role in self-sufficiency, 
profitability and job retention in our American Indian 
communities.
    A&S Tribal Industries uses NAPA programs as tools to meet 
the technical requirements of prime defense contractors and 
increased joint ventures on commercial and Federal contracts. 
This directly creates and retains manufacturing jobs on the 
Fort Peck Indian Reservation. ANA funding helped us develop a 
manufacturing training curriculum at Fort Peck Community 
College that met the supplier standards of a prime defense 
contractor. The result is that locally-based American Indians 
are being trained in manufacturing technical skills that are 
higher paying jobs. This helps A&S Tribal Industries recruit 
new customers, increase revenues and create higher paying jobs 
for Native Americans that live in very small isolated 
communities.
    The reauthorization of NAPA will help other tribally owned 
manufacturing businesses climb the management and technical 
capacity ladders that are minimum standards required by private 
industry. NAPA programs provide resources that help locally 
based Native American leaders build new partnerships, which 
increases jobs, and in turn provides paychecks that support 
local small businesses like grocery stores, clothing stores, 
service companies, transportation companies, telephone utility 
companies and all of the services required on the Fort Peck 
Indian Reservation in Northeastern Montana.
    I urge passage of S. 2436, the reauthorization of the 
Native American Programs Act of 1974.
    [Prepared statement of Mr. Smith appears in appendix.]
    Senator Inouye. Mr. Echohawk, the landmark case Cobell v. 
Norton affects the lives of how many beneficiaries of the funds 
that are held in trust for their benefit?
    Mr. Echohawk. Mr. Chairman, we believe that there are about 
500,000 current and past Individual Indian Money account-
holders that are affected by that litigation.
    Senator Inouye. And what is the amount involved?
    Mr. Echohawk. We believe that about $13 billion has gone 
through the Individual Indian Money accounts since they were 
first created in 1887. I believe that the Government figures 
support that. We believe that the Government's liability in 
that case in terms of providing the accounting requires them to 
come forward with evidence in terms of how much of this $13 
billion they paid out, and then the government would have to 
account for whatever it does not have records for in terms of 
what it has paid out.
    Senator Inouye. Am I not correct that your organization, 
the Native American Rights Fund, plays a major role in this 
case?
    Mr. Echohawk. Yes, Mr. Chairman; we are co-counsel in the 
case on behalf of the class in conjunction with private 
attorneys.
    Senator Inouye. How many years have you been involved in 
this?
    Mr. Echohawk. We have been involved in that case since it 
was filed in 1996.
    Senator Inouye. Are there other cases that the Native 
American Rights Fund is involved in?
    Mr. Echohawk. Yes, Mr. Chairman; all together, the Native 
American Rights Fund is involved in about 50 cases, matters and 
activities across the country on behalf of Native Americans.
    Senator Inouye. With that workload, they are proposing to 
cut the grant by one-half?
    Mr. Echohawk. As I pointed out in my testimony, we have 
been funded in recent years at a level of about $1 million. The 
new limit is $500,000. So if we are able to be funded, the most 
that we could be funded at would be $500,000. We currently have 
a proposal pending that requests almost that amount in the 
first year.
    Senator Inouye. With the circumstances as presented by the 
Administration and the reality of funding, would any of the 
major private firms in the United States take this case, with 
the amount that you receive?
    Mr. Echohawk. The Cobell case? I do not think that there 
are any law firms out there that would take on the case with 
the magnitude of the Cobell case. That was basically the 
experience that we had. We were able to enlist the services of 
some private attorneys in some firms, but there is no way that 
they could carry that case completely, so it has had to be done 
on the private resources of the Native American Rights Fund 
that have been raised from private sources.
    Senator Inouye. In other words, if it were not for this 
assistance from the Administration of Native Americans, 500,000 
Native Americans would not get what the historical accounting 
to which are entitled to?
    Mr. Echohawk. The specific funding that we have had in 
recent years from the Administration for Native Americans has 
not been used for the Cobell v. Norton case. That money to 
support that case has come from private resources raised by the 
Native American Rights Fund. The funding from ANA has been used 
in our most recent grant for 22 different objectives out of 
these 50 other cases that I was talking about.
    Senator Inouye. So you support this program?
    Mr. Echohawk. Yes, Senator; I certainly do. As I mentioned 
in my testimony, there are no other large sources of funds for 
Native American social and economic development like the ANA 
program. We desperately need it to be reauthorized and continue 
to be made available to Native Americans across the country.
    Senator Inouye. Do you also feel that this bill should be 
amended to make certain that caps of that nature are not 
authorized?
    Mr. Echohawk. It has severely impacted the Native American 
Rights Fund and our constituents. We would hope that the 
Administration would reconsider the limit or that Congress 
would ask them to reconsider that limit.
    Senator Inouye. I thank you very much, Mr. Echohawk.
    Mr. Echohawk. Thank you, Mr. Chairman.
    Senator Inouye. Mr. Smith, you mentioned that the Native 
American Programs Act provides project funding for your tribal 
industries. Can you give us an example of specific projects, 
just for the record?
    Mr. Smith. Yes, Mr. Chairman; The Assiniboine-Sioux Tribe 
was able to support our efforts to expand our manufacturing 
capabilities, although A&S Tribal Industries was a very large 
manufacturing operation.
    Senator Inouye. What do you manufacture?
    Mr. Smith. It has had to change the way it does business. 
Basically, changing from a job-creating industry to a profit-
making business. The ANA funding has allowed us to expand our 
markets and then train our tribal members into some technical 
areas that we need to have for these expansion efforts. The 
markets have changed. We have to be more competitive. There are 
short-runs versus large-runs. So we have had to change the way 
we do business. We have had to become more technology-oriented 
and it all requires training. It also requires our ability to 
get the computer-related equipment and the kind of facilities 
that we would need to help us make these changes for new 
markets.
    Senator Inouye. Your industries have resulted in employment 
for Native Americans. What is the scope of this employment? How 
many people have been hired?
    Mr. Smith. When I came back to my reservation 4 years ago, 
there were four people working there.
    Senator Inouye. Four?
    Mr. Smith. Four people, yes, Mr. Chairman.
    Senator Inouye. And the rest were unemployed?
    Mr. Smith. Excuse me?
    Senator Inouye. And the remainder were unemployed?
    Mr. Smith. Yes; that came down to four people from 550 
people at one time, so it was a very significant change to the 
community. But we have since, with the help of these kind of 
resources, like from ANA, we have been able to turn around our 
company. We now have 120 people. We have just spun off a new 
business, bootstrapped a new business in another area, using 
some of the Small Business Administration programs. So we are 
creating more jobs. We are creating higher-paying jobs. We are 
creating new businesses.
    Senator Inouye. So I suppose you would say this is a 
``must'' bill.
    Mr. Smith. I would definitely say that, yes, Mr. Chairman.
    Senator Inouye. Well, gentlemen, I thank you very much. We 
will do our very best to see that this measure becomes law and 
the funding continues.
    Thank you.
    Mr. Smith. Thank you.
    Mr. Echohawk. Thank you, Mr. Chairman.
    [The prepared statement of Poka Laenui, submitted for the 
record in support of S. 2436, appears in appendix.]
    [Whereupon, at 10:42 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Sharon Clahchischilliage, Executive Director, Navajo Nation 
                           Washington Office

    Mister Vice Chairman and honorable members of the Senate Committee 
on Indian Affairs, I appreciate the opportunity to comment on the value 
of S. 2436 the Reauthorization of the Native American Programs Act of 
1974 as administered by the Department of Health and Human Services.
    My name is Sharon Clahchischilliage. I am a member of the Navajo 
Nation and the executive director for the Navajo Nation Washington 
Office. The Office represents the policies and concerns of the Navajo 
Nation government to the U.S. Congress and Federal agencies.
    The Navajo Nation and the Administration for Native Americans [ANA] 
have enjoyed a long and productive relationship. The ANA is an 
essential source for the promotion of funding programs that encourage 
economic self-determination and the preservation of language and 
culture for Native Americans. The ANA is unique in that it is the only 
Federal agency that serves the diverse scope of Federal and State 
recognized tribes by providing grants, training and other assistance to 
enhance the ability of Native Americans to exercise self-determination 
in governmental decisionmaking, foster tribal economic growth, promote 
health programs, and enhance the preservation of traditions and 
culture. The ANA manages to support the approximately 2.2 million 
individuals served by its grants and assistance with a budget of only 
$35 million. The success in terms of the fulfillment of the ANA's goals 
and objectives is more than reason enough to reauthorize the Native 
American Programs Act.
    The Navajo Nation has received five grants from the ANA since 1994 
to promote various programs from language preservation to supporting 
the Navajo Arts and Crafts Cooperative to promoting improved sheep 
farming self-sufficiency to developing environmental codes and 
regulations. These projects totaling approximately $1.6 million have 
helped the Navajo Nation promote and preserve our traditional culture 
and protect our environment.
    For example, the Navajo Nation has received two grants to promote 
the Navajo Nation Language Project. This project has been developed to 
promote the instruction of the Navajo language in Navajo high schools. 
The funds provided by the ANA allow the Navajo Nation to develop and 
improve Navajo language teaching materials. The ANA grants have been 
used to create new language curricula, train teachers and improve 
Navajo language programs to meet the standards of foreign language 
requirements in Arizona, New Mexico, and Utah. These funds have also 
been used to develop a social studies course that provides an essential 
understanding of the Navajo Nation government. Without these grants, 
the Navajo Nation would not be able to offer Navajo language 
instruction as a legitimate high school foreign language credit, nor 
would teachers be able to use updated curricula and instruction 
materials. Finally, the creation of the Navajo Government instruction 
provides essential information on how the lives of individual Navajo 
are governed by their elected officials.
    The Navajo Nation has benefited from other ANA grants such as the 
Sheep is Life Economic Development Project. This project helps to fund 
Dine' be' iina', Inc., a non-profit organization that is helping to 
restore the Churro Sheep among Navajo sheep owners. The organization 
also helps to further economic self-sufficiency that is based on the 
historic interrelationship between and traditional sheep farming, and 
wool and fiber crafts. The project has helped to raise interest in 
traditional sheep rearing, and training students to sheer, sort, card, 
wash, and spin wool at high schools, and develop an educational 
curriculum for high school agriculture programs.
    These are just two examples of the projects that ANA grants have 
helped to benefit the Navajo People. These grants provide much needed 
money to protect traditional ways. The culture and traditions of Native 
Americans throughout the country are always under pressure from the 
intrusion of modern influences. The ANA helps to keep these intrusions 
at bay by creating incentives to adhere to traditional practices and 
culture.
    The reauthorization of the Native American Programs Act will help 
to protect the traditions of tribes and promote economic self-
sufficiency. For that reason the Navajo Nation supports the 
reauthorization of the Act and the continuation of the ANA grants. I 
strongly urge the passage of S. 2436.
                                 ______
                                 

  Prepared Statement of John E. Echohawk, Executive Director, Native 
                          American Rights Fund

    Good morning, Chairman Campbell, Vice Chairman Inouye, members of 
the committee. Thank you for inviting me here today to discuss S. 2436, 
a bill to reauthorize the Native American Programs Act of 1974. The act 
is administered by the Administration for Native Americans [ANA] in the 
Department of Health and Human Services.
    Both the Native American Rights Fund and I have had a long 
association with ANA. I went to law school on a scholarship program 
started in 1967 by ANA's predecessor agency, the Indian Division of the 
Office of Economic Opportunity. The purpose of the pilot program was to 
increase the number of Native American attorneys in this country--there 
were only a handful at the time and we should have had 1,000 to be 
proportionally represented in the legal profession. The pilot program 
was later picked up by other government agencies and private 
scholarship providers and has helped to produce over 2000 Native 
American attorneys today. I think that all of the committee members are 
aware of the important role that Native American attorneys have played 
in helping the tribes improve their social and economic conditions 
substantially during the Indian self-determination era which has 
occurred during this time. This is the kind of social and economic 
development that ANA has done and can continue to do in Indian country.
    The Native American Rights Fund, a non-profit national Native 
American legal organization, has been receiving funding from ANA and 
its predecessor agencies almost continuously since 1971 to assist 
tribes, Native American organizations and individuals in removing and 
resolving legal barriers to social and economic development. In recent 
years with ANA support, the Native American Rights Fund assisted the 
Chippewa-Cree Tribe of the Rocky Boys Reservation in Montana in 
negotiating a water rights settlement compact with the State of Montana 
that was approved by Congress and provided $47 million to the tribe to 
provide for its present and future water needs. With ANA support, the 
Native American Rights Fund assisted the Alabama-Coushatta Tribe of 
Texas in securing a recommendation from the U.S. Court of Federal 
Claims that Congress should provide over $270 million in compensation 
to the tribe for the failure of the United States to protect the 
tribe's aboriginal lands. In Alaska, the Native American Rights Fund 
provided assistance to Alaskan Natives in protecting their subsistence 
hunting and fishing rights which were upheld in court decisions and 
which provide an annual harvest of 34-40 million pounds of game and 
fish to over 200 Native villages. These are just a few recent examples 
of the social and economic development projects that the Native 
American Rights Fund has done with ANA support.
    I am therefore very supportive of this bill to reauthorize the 
Native American Programs Act of 1974 and keep the ANA program going to 
provide financial assistance to Native Americans for social and 
economic development, environmental protection and language 
revitalization. As an executive director of a Native American non-
profit organization, I know how difficult it is to raise funds for 
Native American social and economic development projects from the 
public and private sectors. I know that ANA has the largest amount of 
funds and the greatest flexibility in supporting Native American social 
and economic development projects anywhere. Despite ANA's long history 
of supporting these projects, there is still a significant unmet need 
for funding for Native American social and economic development 
projects as evidenced by the huge volume of grant applications that ANA 
still receives annually. The Native American Programs Act of 1974 needs 
to be reauthorized so that ANA can continue its important role in 
trying to meet this unmet need and promote Native American social and 
economic development across the country.
    ANA's primary grant program for meeting these social and economic 
development needs is their Social and Economic Development Strategies 
[SEDS] program. I was pleased to be part of a work group put together 
by ANA back in the 1970's that helped to formulate the SEDS program. 
The key element of SEDS was the self-determination policy which 
recognizes the right and the responsibility of each tribe and Native 
American community to create its own strategy for social and economic 
development. The flexibility built into the SEDS program to allow 
consideration of these tribal and community based strategies for 
funding has allowed ANA to achieve the success that it has in promoting 
social and economic development projects in Indian country.
    Unfortunately, I believe that this flexibility in the ANA SEDS 
program was compromised when ANA released its 2004 program announcement 
late last year which it finalized earlier this year. I shared my 
concerns about the new program announcement with ANA Commissioner 
Quanah Stamps but unfortunately they were not addressed in the final 
program announcement. My first concern was that the upper limit on 
grant awards was reduced from $1 million per year, which is about what 
the Native American Rights Fund has been receiving in grants in recent 
years, to $500,000, a reduction of $500,000. My other concern was the 
new restriction against funding any project that had been funded in 
whole or part before, which basically means that ANA SEDS funding is 
now limited to projects that can be completed in 3 years or less. In 
past years, ANA would fund Native American Rights Fund projects 
inparts, so that a project requiring more than 3 years to complete 
could be funded and eventually completed. Now we are required to 
propose SEDS projects that take 3 years or less and we do not have very 
many of those to propose on behalf of the tribes and Native American 
communities that we serve. These two changes mean that ANA has gone to 
a SEDS program that limits the flexibility of tribes and Native 
American communities and requires smaller grants and smaller projects. 
These two changes have impacted the Native American Rights Fund 
severely and I hope that ANA will reconsider them in future SEDS 
program announcements.
    Thank you, Mr. Chairman, for this opportunity to testify and I will 
be pleased to answer any questions that you or the other committee 
members may have.
                                 ______
                                 

 Prepared Statement of Poka Laenui, Executive Director, Wai`anae Coast 
             Community Alternative Development Corporation

    I wish to take this opportunity to speak in favor of S. 2436 to 
reauthorize the Native American Programs Act of 1974.
    Our organization, the Wai'anae Coast Community Alternative 
Development Corporation, is a small community organization formed in 
1987 out of a desperate need to find alternative models of unfolding 
into our futures--remaining true to our native traditions yet being 
unafraid of walking in the world of modernity.
    Over the years, we have been successful innumerous projects. Our 
projects' basic theme is that native Hawaiian cultural principles 
remain the core of our modern interaction with society, whether in the 
area of economic or social development, health care, or spiritual 
maturity. Using our backyard aquaculture/agriculture system, we have 
been able to influence people throughout our Wai'anae community and 
have taken our programs out to communities throughout the State of 
Hawai'i, into the prisons, to various school complexes, and public 
housing programs. We have even had a positive impact in American Samoa 
and Guam.
    We have had the support of a number of funding organizations and 
individuals over these years. But one particular support stands out 
specially. It is the support of the Administration for Native 
Americans. ANA has been such a crucial and timely funder for our 
earlier programs, without which, our organization would probably have 
folded in its infancy. Because of its early support, we were able to 
show that our innovative, untested, native driven program is viable in 
our complex ``modern'' world. We were able to show that native 
traditional principles are still valid, and just as much necessary 
anchors for our native people today, as they were before Hawai'i's 
falling under U.S. governance in 1898.
    Today, ANA has assisted us in ``A Chance to Work,'' another unique 
program using traditional values as we partner with the Hale Na`au 
Pono, our community's mental health center in providing training for 
our seriously mentally ill residents become employable or attain self 
sufficiency. This program is still new in terms of mental health 
treatment, but it is already catching the eye of many in the mental 
health treatment as well as vocational rehabilitation fields.
    Hopefully, it will become another model from the Wai`anae Coast 
Community Alternative Development Corporation to be adopted by others 
beyond our shores and into other native communities.
    I write this testimony on behalf of my organization. But I am just 
as aware of the many other organizations which have been helped by ANA. 
Some projects have been very successful. Others have failed. But the 
important point is not the success or failure of projects. The 
important point is that ANA has given native people a chance to follow 
our own dreams as we unfold into our futures--the true path of self-
determination.
    Mahalo a nui loa.
                                 ______
                                 

 Prepared Statement of Leonard J. Smith, Enrolled Member, Assiniboine-
                              Sioux Tribes

    Mister Chairman and members of the committee, I appreciate the 
opportunity to testify on behalf of the reauthorization of the Native 
American Programs Act of 1974. Referred to in my testimony as NAPA.
    My name is Leonard J. Smith and I am an enrolled member of the 
Assiniboine-Sioux Tribes on the Fort Peck Indian Reservation in 
northeastern Montana. I am also chief executive officer of A&S Tribal 
Industries, a tribal owned, four-acre industrial complex of 180,000 
square feet that provides metal fabrication and machining manufacturing 
services to the Federal Government and to private industry. A&S Tribal 
Industries, once the largest private sector employer in northeastern 
Montana, with 550 employees and approximately $40 million in revenue is 
currently diversifying into new market opportunities with the 
assistance of NAPA.
    NAPA is the only program in the Federal Government that:

  <bullet> \\\\\\Provides seed funding for a large and diverse 
        constituency-over 550-federally Recognized Tribes, Alaska 
        Natives and Natives of the Pacific Islands
  <bullet> \\\\\\Helps leverage local funds and non-Federal Rinds to 
        finance business projects at the community level.

    The results are increased self-sufficiency, job creation and job 
retention on American Indian reservations. Programs such as NAPA have a 
strong impact on the ability of tribal and Native owned companies to 
develop laws and regulations that comply with Federal agency standards 
as well as with business practices required by private industry.
    My testimony focuses on project funding and technical assistance 
provided by the Administration for Native Americans [ANA]. The 
investments we have received from ANA have helped A&S Tribal Industries 
increase private sector contracts for commercial product lines. As 
chief executive officer of a tribal owned enterprise, I understand and 
incorporate the distinct competitive advantages that tribes have for 
creating jobs on reservations and in Native American communities. But 
we need the Federal partners, like NAPA, to help with the successful 
transition of tribal-owned companies into the global economy.
    In our case, technology plays an important role in self-
sufficiency, profitability and job retention in our American Indian 
communities. A&S Tribal Industries uses NAPA programs as tools to meet 
the technical requirements of prime defense contractors and increase 
joint ventures on commercial and Federal contracts. This directly 
creates and retains manufacturing jobs on the Fort Peck Indian 
Reservation.
    ANA funding helped us develop a manufacturing training curriculum 
at Fort Peck Community College that met the supplier standards of a 
prime defense contractor. The result is that locally based American 
Indians are being trained in manufacturing technical skills that are 
higher paying jobs. This helps A&S Tribal Industries recruit new 
customers, increase revenues and create higher paying jobs for Native 
Americans that live in very small isolated communities.
    The reauthorization of NAPA will help other tribally owned 
manufacturing businesses climb the management and technical capacity 
``ladders'' that are minimum standards required by private industry. 
NAPA programs provide resources that help locally based Native American 
leaders build new partnerships which increase jobs. And in turn, 
provides paychecks that support local small businesses like grocery 
stores, clothing stores, service companies, transportation companies, 
telephone and utility companies and all of the services required on the 
Fort Peck Indian Reservation in northeastern Montana. I urge passage of 
S. 2436, the Reauthorization of the Native American Programs Act of 
1974.
    Thank you.

     Quanah Crossland Stamps, Administration for Native Americans, 
  Administration for Children and Families, Department of Health and 
                             Human Services

    Mr. Chairman and members of the committee, I am honored to appear 
before you to discuss the reauthorization of the Native American 
Programs Act [NAPA]. As the Commissioner for the Administration for 
Native Americans [ANA] located within the Administration for Children 
and Families at the Department of Health and Human Services, I have 
responsibility for administering the Native American Programs Act.
    The purpose of NAPA is to promote the goal of economic and social 
self-sufficiency for American Indians, Native Hawaiians, Alaska 
Natives, and other Native American Pacific Islanders, including 
American Samoans and the Native people of Guam and the Northern Mariana 
Islands. Each of these culturally diverse populations has their own 
traditions, languages, and community social and economic challenges.
    The fiscal year 2004 budget of $45 million supports three grant 
programs. The Social and Economic Development Strategies [SEDS] program 
uses competitive financial assistance grants in support of locally 
determined and designed projects to address community needs and goals 
and supports Native communities in their efforts to reduce dependency 
on public funds and social services by increasing community and 
individual productivity through community development. The 
Environmental Regulatory Enhancement program assists tribes in the 
planning, development and implementation of projects that were designed 
to improve their capacity to regulate environmental activities. The 
Language Preservation and Maintenance program is designed to ensure the 
preservation and enhancement of Native American languages. The 
Administration is pleased to support the reauthorization of each of 
these vital programs.
    ANA's funding is targeted to projects that are community-based, 
community-determined, and community-implemented. For example:
    In Hawaii, an organic farm teaches and practices traditional 
growing methods to at-risk youth.
    In Colorado, the Native American Sports Council is combining 
traditional Native American values with athletic excellence and 
wellness. This program has touched over 1,500 Native American athletes 
and coaches.
    In Montana, the Fort Peck Reservation has developed a manufacturing 
business that has created over 200 jobs.
    In Oklahoma, the Cherokee Nation has developed school-based 
language immersion programs and after school programs.
    In Arizona, the Inter-Tribal Council of Arizona [ITCA], which 
represents 20 tribes, developed a plan for the renovation of a historic 
building. This building now houses the ITCA offices and provides health 
and human services assistance to community members.
    In Washington State, the Affiliated Tribes of the Pacific Northwest 
have developed travel and tourism brochures, videotapes and marketing 
materials that have increased their tourism revenue.
    In North Dakota, the Standing Rock Sioux Tribe is building business 
and financial plans that will enable them to purchase and operate their 
own local telephone company.
    In Alaska, Port Graham is laying the foundation for development of 
a value-added fish processing operation. This will allow Port Graham to 
diversify their fish processing operations and identify value-added 
products supported by the marketplace.
    In addition to authorizing these key Native American programs, NAPA 
authorizes the Departmental Council on Native American Affairs 
[Council]. I serve as the Council chair. In 2002, Secretary Thompson 
elevated the Council to the Office of the Secretary. This Council is 
comprised of the principals from all the HHS Operating and Staff 
Divisions and meets four times a year. Last year, the Council completed 
an HHS Tribal accessibility study that identified programs from which 
tribes are eligible to receive funding. This year, the Council is 
identifying the barriers that tribes face when trying to access these 
programs.
    About 18 months ago, when I became commissioner, I conducted a 
thorough review of ANA, and based on that review, developed an 
organizational action plan to make an already great program more 
streamlined, more cost effective and more accessible to our Native 
communities. As a result, ANA has restructured how it delivers its 
program services and automated its panel review process to allow for 
data collection and project monitoring. I would like to describe some 
of ANA's major accomplishments.
    First, we have updated the ANA program announcement to clarify, 
streamline and standardize the application submission process. In 
addition, the new program announcements now require ANA applicants to 
identify performance indictors to be used to evaluate the success of a 
funded project. ANA has never consistently collected quantitative data 
to track the success of grantees. This lack of data hinders ANA's 
ability to inform the Congress on the effectiveness of ANA programs and 
their community impact. The new performance indicators will allow ANA 
to document consistently the number of people trained; the number of 
jobs created and retained; the number of children, youth and families 
served; the amount of non-government investment in each project; the 
transference of language and fluency; the number of businesses retained 
or expanded; the dollars invested in community infrastructure; and the 
number and type of new tribal codes and ordinances developed and 
implemented.
    Second, we consolidated program competitions and expanded non-
profit organizations' ability to apply for grants. Previously, under 
each ANA program area, ANA awarded only one grant that impacted a 
reservation, tribe or Native American community. Beginning in fiscal 
year 2004, in addition to a tribe, multiple non-profit organizations 
may compete for funding. The reason for this program modification is to 
expand and support large rural and urban communities that need a 
variety of services. In addition to tribes being able to have three 
simultaneous ANA grants [SEDS, Language and Environmental] at any one 
time, this clarification allows other community-based organizations to 
apply for and receive ANA funding, provided the objectives and 
activities do not duplicate currently funded projects.
    In addition, during fiscal year 2004, ANA released three separate 
program announcements, one each for SEDS, including Alaska SEDS, 
Language Preservation and Maintenance, and Environmental Regulatory 
Enhancement. Each announcement had one closing date. Previously, ANA 
had two to three competitions per fiscal year for SEDS, one for 
Language, and one for Environmental Regulatory Enhancement. Closing 
dates were staggered over a 4-week period to allow tribes and Native 
organizations the opportunity to apply to all program areas. The new 
application closing process will allow ANA to release all funding to 
communities earlier in the fiscal year. It also will provide additional 
time for applicants to receive technical assistance training in project 
development and application preparation and allow grantees the 
opportunity to implement projects in a timely manner, recruit personnel 
necessary to support the grantee's objectives, and decrease the number 
of requests for grant extensions. The results of this consolidation 
have allowed ANA to decrease the administrative costs associated with 
multiple closings, and use the cost savings to award additional grants.
    In compliance with the Paperwork Reduction Act of 1995 and in 
accordance with the Federal Government-wide E-Grants initiative, ANA 
has automated its application receipt and panel review process. The new 
automation and document management system has provided significant 
program and cost efficiencies. It has allowed ANA to collect program 
data such as the type of project to be funded; track grantee progress 
and project expenditures; identify non-Federal project investments; 
provide effective and timely comments to unsuccessful applicants; track 
the effectiveness of technical assistance providers; and ensure that 
ANA does not duplicate grant projects that may have been funded in 
prior years.
    While ANA is required by statute to provide training and technical 
assistance [T/TA] to all potential applicants, we had not previously 
conducted a full evaluation of the effectiveness of ANA T/TA providers. 
Therefore, in fiscal year 2003, ANA implemented a T/TA tracking system 
to monitor which applicants received services and the effectiveness of 
these services. This change has been positive and successful across the 
board. Other HHS agencies are now contracting with ANA T/TA providers 
to serve Native communities participating in their programs.
    Beginning in August 2004, ANA T/TA providers will start to teach 
project development. Training participants will be taught how to lay 
out the components of a project and an implementation plan, and how to 
develop quantitative and qualitative performance indicators.
    Finally, the NAPA requires that ANA evaluate its grant portfolio 
not less frequently than every 3 years. We have chosen to fulfill this 
requirement by dividing our portfolio into thirds and evaluating one-
third annually. ANA now is refining an evaluation tool that will assist 
us assessing the long-term community impact of ANA funded projects. The 
evaluation tool also will assess how well the ANA program and its 
services meet the needs of its community. I look forward to reporting 
the results of these evaluations to this committee in the near future.
    Mr. Chairman and members of the committee, the ANA programs provide 
funding for unique community projects that make a difference in the 
lives of our Native children, youth and families. ANA also funds the 
widest range of Native organizations and communities. It is ANA's goal 
to fimd as many quality projects as possible and to work with our 
grantees and communities to ensure the success of each project.
    I look forward to working with this committee on the 
reauthorization of the Native American Programs Act and to continue to 
improve our ability provide the seed capital and technical assistance 
tools communities need to achieve their goals of social and economic 
self-sufficiency.
    I am happy to answer any questions you may have for me at this 
time.

                                 <all>

</pre></body></html>
